WAIVER OF WAITING PERIOD
Case No. 20-599
Case Name:
Hirsh Singh, pro se., v. Philip D. Murphy et al.,
I, Hirsh Singh, pro se., petitioner having filed my Reply to the Brief in Opposition
and as such expressly waive my right to a 14-day waiting period per Rule 15.5 in
the interest of expediting justice and national interest.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 30th day of January 2021.
/s/ Hirsh V. Singh
Hirsh Singh,
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

